IN THE SUPREME COURT OF THE UNITED STATES

JAMUL ACTION COMMITTEE, ET AL.
Petitioner
vs.

No:

20-1559

E. SEQUOYAH SIMERMEYER, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
June 09, 2021
cc:
KENNETH ROBERT WILLIAMS
980 9TH STREET
16TH FLOOR
SACRAMENTO, MI 95614
FRANK LAWRENCE
578 SUTTON WAY N. 246
GRASS VALLEY, CA 95945

